Appellate Case: 19-5009

Document: 010110364704

FILED
Date Filed:
06/17/2020
Page:
1
United States Court
of Appeals
Tenth Circuit

June 17, 2020
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
DARREN B. WOODARD,

No. 19-5009
(D.C. No. 4:18-CR-00086-GFK-l)
(N.D. Okla.)

Defendant - Appellant.

ORDER AND JUDGMENT*

Before BACHARACH, SEYMOUR, and MCHUGH, Circuit Judges.

Darrin B. Woodard entered a conditional guilty plea for a violation of 18 U.S.C.
§ 924(c)(l)(A)(i), possession of a firearm in furtherance of a drug trafficking crime. He
preserved this appeal from the district court’s denial of his motion to dismiss (and
supplemental motion to dismiss) for unconstitutional pre-indictment delay. We affirm.

*

This order and judgment is not binding precedent, except under the doctrines of
law of the case, res judicata, and collateral estoppel. The court generally disfavors the
citation of orders and judgments. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appendix A, page 1a

Appellate Case: 19-5009

Document: 010110364704

Date Filed: 06/17/2020

Page: 2

I.
In early 2015, Tulsa Police received information that Darrin Woodard and others
were selling cocaine and marijuana from a house in Tulsa. After finding cocaine and
marijuana residue in the trash outside that residence, they sought and received a search
warrant. They executed a search warrant on March 2, 2015. When police arrived at the
house, they saw four men enter a vehicle parked in the driveway and drive away from the
residence. The officers followed the vehicle and ultimately pulled it over for a speeding
violation. The officers identified one of the men in the vehicle as defendant Darrin
Woodard. During the traffic detention, the warrant team searched the house and found
ammunition and weapons, including a Taurus Judge .40 caliber pistol. They also found
cocaine powder and base. On the day of the search, the officers recorded a mirandized
interview with Mr. Woodard, in which he admitted to owning the pistol.
In April 2018, a federal grand jury charged Mr. Woodard and others with drug and
firearm offenses based on the 2015 search of the house. Mr. Woodard moved thereafter to
dismiss the indictment, alleging unconstitutional pre-indictment delay.1 On October 15,
2018, the day before trial was to begin, Mr. Woodard filed a Supplemental Motion to

1

Defendant filed a motion to dismiss. He argued that the pre-indictment delay
violated his right to a speedy trial under the Sixth Amendment. He also cited numerous
cases that related to post-indictment delay. In response, the government noted that Mr.
Woodard had conflated the notions of pre-indictment and post-indictment delay. The
district court denied the motion to dismiss based on its consideration of Fifth Amendment
due process cases relating to pre-indictment delay.

2
Appendix A, page 2a

Appellate Case: 19-5009

Document: 010110364704

Date Filed: 06/17/2020

Page: 3

Dismiss asserting that the delay was partially the result of government efforts to convince
Mr. Woodard to cooperate in another matter.
The district court held three hearings on the motions. The last two hearings
occurred separately on the day of trial. During the third hearing, the court permitted Mr.
Woodard to call witnesses and present testimony. At the conclusion of that hearing, the
court found that Mr. Woodard had suffered prejudice as the result of the pre-indictment
delay due to the suicide of a key witness, but it held that he had failed to prove the
government’s delay was intentional and purposeful as opposed to merely negligent. Mr.
Woodard appeals, asserting the district court applied the wrong standard.
II.
The focus of Mr. Woodard’s argument in this appeal relates to a comment the
district court made prior to hearing evidence on the motion and supplemental motion to
dismiss at the October 16, 2018 hearing. During the first moments of that hearing the
court engaged in a discussion with counsel and commented:
[T]he pre-indictment delay[] must be intentionally or purposefully designed
and pursued by the government to gain some tactical advantage over or to
harass him.
It does raise the interesting question of would the government's
motive to attempt to get the defendant to help it in other investigations, is
that the type of delay that would satisfy this requirement; or rather . . . must
the delay be intentionally or purposefully designed and pursued by the
government to negatively impact the defendant in that prosecution?
Rec., vol. II at 18. Mr. Woodard contends these comments show the district court applied
an incorrect legal standard in concluding that he failed to prove the government’s delay

3
Appendix A, page 3a

Appellate Case: 19-5009

Document: 010110364704

Date Filed: 06/17/2020

Page: 4

was intentional and purposeful and designed to gain a tactical advantage “in that
prosecution.”
We review the denial of a motion to dismiss for pre-indictment delay for abuse of
discretion. United States v. Bernard Comosona, 848 F.2d 1110, 1113 (10th Cir. 1988).
“A court abuses its discretion only when it makes a clear error of judgment, exceeds the
bounds of permissible choice, or when its decision is arbitrary, capricious or whimsical,
or results in a manifestly unreasonable judgment,” Liberty Mut. Fire Ins. Co. v.
Woolman, 913 F.3d 977, 990 (10th Cir. 2019) (internal quotation marks and citation
omitted), or alternatively when the court “base[s] its ruling on an erroneous view of the
law or on a clearly erroneous assessment of the evidence,” United States v. Dixon, 901
F.3d 1170, 1176 (10th Cir. 2018) (citation omitted).
On the issue of pre-indictment delay, the Supreme Court has stated that: “statutes
of limitations, which provide predictable, legislatively enacted limits on prosecutorial
delay, provide ‘the primary guarantee, against bringing overly stale criminal charges.’”
United States v. Lovasco, 431 U.S. 783, 789 (1977) (citation omitted). However, there is
also protection under the due process clause of the Fifth Amendment that can arise
before the statute of limitations expires. Id. Such a “due process inquiry must consider
the reasons for the delay as well as the prejudice to the accused.” Id. at 790. As the
Court explained in United States v. Marion, 404 U.S. 307, 325 (1971), which
involved a 38-month pre-indictment delay, the defendants failed to “demonstrate[]
that the pre-indictment delay by the Government violated the Due Process Clause.”

4
Appendix A, page 4a

Appellate Case: 19-5009

Document: 010110364704

Date Filed: 06/17/2020

Page: 5

Not only did the defendants in that case fail to prove actual prejudice, “there [was]
no showing that the Government intentionally delayed to gain some tactical
advantage over [the defendants] or to harass them.” Id. As we recognized in United
States v. Rufus Comosona, 614 F.2d 695, 696 n.1 (10th Cir. 1980), “[i]t is
important to observe that something more than ordinary negligence on the part of
Government representatives must be shown, no matter how high the actual proof of
prejudice is. The Government’s delay must be intentional and purposeful.”
The district court applied this analysis here and determined that while Mr.
Woodard suffered actual prejudice as the result of the pre-indictment delay,
“[s]imply put, the defendant has not demonstrated the delay here was intentional and
purposeful; specifically, that it was more than ordinary negligence” on the part of the
government. Rec., vol. II at 82. Negligent acts by their very nature are not intentional
nor are they designed to accomplish an end. A consideration of whether any tactical
advantage on the part of the government must have been with respect to the trial in
this case or in general is only relevant if the district court had first found that the preindictment delay was an intentional or purposeful device employed by the
government. Because Mr. Woodard failed to offer evidence that the delay here
constituted anything more than negligent conduct on the part of the government, we
need not resolve whether the tactical advantage requirement was designed to apply in
general or in connection with the pending case against a defendant.

5
Appendix A, page 5a

Appellate Case: 19-5009

Document: 010110364704

Date Filed: 06/17/2020

Accordingly, the district court did not abuse its discretion in denying Mr.
Woodard’s motion and supplemental motion to dismiss for unconstitutional preindictment delay. For the foregoing reasons, we AFFIRM.

Entered for the Court

Stephanie K. Seymour
Circuit Judge

6
Appendix A, page 6a

Page: 6

Case 4:18-cr-00086-GKF Document 131 Filed in USDC ND/OK on 04/01/19 Page 67 of 75
67

1

accuracy on the issue before the court, which is the continuing

2

and reasserted motion to dismiss raised by the defendant based

3

upon pre-indictment delay.

4

get up here and this dialogue starts, but I need to pull you

5

back, we need to focus on the issue at hand.

6

Q.

7

about Mr. Gillespie, would you be willing to give all of that

8

testimony if this case proceeded to trial?

9

A.

Yes, sir.

10

Q.

Thank you.

(BY MR. DUNCOMBE)

Go ahead.

Mr. Woodard, the testimony you gave

11

MR. DUNCOMBE:

12

THE COURT:

13

MR. KIRKPATRICK:

14

THE COURT:

15

And I understand how it is when you

Nothing further.

Redirect?
Not based on those, Judge.

Very well.

You may step down, sir.

Any

further witnesses?

16

MR. KIRKPATRICK:

17

THE COURT:

No, Judge.

All right.

Let me cut through it here.

18

It does appear that as to the first element, that of prejudice,

19

that the defendant has shown prejudice with respect to the

20

pre-indictment delay.

21

Mr. Gillespie, his suicide, there is prejudice insofar as

22

Mr. Gillespie committed suicide in 2017, and had this

23

indictment been brought in 2015 or even 2016, Mr. Gillespie, at

24

least there would have been a possibility that he could have

25

been brought to this courthouse on behalf of the defendant to

Specifically, as to the death of

Brian P. Neil, RMR-CRR
U.S. District Court - NDOK

Appendix B, page 7a

78

Case 4:18-cr-00086-GKF Document 131 Filed in USDC ND/OK on 04/01/19 Page 68 of 75
68

1

testify, as the defendant contends, that the house is really

2

Mr. Gillespie's and that Mr. Woodard was simply covering the

3

bills to help Mr. Gillespie.

4

Further, there's been testimony here elicited from the

5

defendant that Roger Reed, defendant's cousin, is in prison.

6

Of course, there's nothing before this court to indicate that

7

he couldn't be writted to this courthouse to testify on the

8

defendant's behalf.

9

Now, any further argument?

I know we've had argument

10

both at the pretrial conference, these issues have been

11

presented to the court in the motion to dismiss, the response

12

to the motion to dismiss, the supplement to the motion to

13

dismiss, and we've discussed it further this morning when the

14

court denied at that point the supplement to the motion to

15

dismiss.

16

Any further argument bringing into focus the evidence

17

that's been elicited here this afternoon relative to the issue

18

of whether or not the delay was intentionally or purposefully

19

-- purposely -- excuse me -- p-u-r-p-o-s-e-l-y -- designed and

20

pursued by the government to gain some tactical advantage over

21

the defendant or to harass him?

22

MR. KIRKPATRICK:

Mr. Kirkpatrick.

You know, Judge, I'm not sure

23

exactly what the court means to gain a tactical advantage, and

24

perhaps that is the -- perhaps that's the crux of this case.

25

Anytime that a defendant is deprived of valuable
Brian P. Neil, RMR-CRR
U.S. District Court - NDOK

Appendix B, page 8a

79

Case 4:18-cr-00086-GKF Document 131 Filed in USDC ND/OK on 04/01/19 Page 69 of 75
69

1

evidence in a case by the government's inaction, whether

2

purposeful or not, then at that point the defendant has

3

suffered what I consider -- what I consider to be extreme

4

prejudice.

5

THE COURT:

Well, but that's just not the law and I

6

understand the equity of what you're arguing.

7

law, as stated by the Tenth Circuit, as I understand it, the

8

defendant has to show, in the context of pre-indictment delay,

9

in order to warrant dismissal, a defendant must demonstrate the

But under the

10

government's delay was intentional and purposeful.

11

a quote from United States v. Comosona.

12

negligence on the part of government representatives must be

13

shown, no matter how high the actual proof of prejudice is."

14

So as I say, the understand your equity argument but

And this is

"More than ordinary

15

I've got to follow the law.

16

ordinary negligence on the part of the government.

17

to show that the delay was intentional and purposeful.

18

MR. KIRKPATRICK:

19

THE COURT:

20

MR. KIRKPATRICK:

21

THE COURT:

I understand, Judge.

Anything in that regard -Nothing that hadn't already been

Okay.

Thank you very much.

Mr. Duncombe.

24
25

You've got

said, Judge.

22
23

So you've got to show more than

MR. DUNCOMBE:
prejudice.

Your Honor, just a quick point as to

I just wanted to state for the record that any
Brian P. Neil, RMR-CRR
U.S. District Court - NDOK

Appendix B, page 9a

80

Case 4:18-cr-00086-GKF Document 131 Filed in USDC ND/OK on 04/01/19 Page 70 of 75
70

1

prejudice claims would be mitigated by the fact that Monica

2

Gillespie has stated that she would testify at trial and that

3

she remembers that her brother owned that house or leased that

4

house; that Ms. Donaho stated that she was willing to testify,

5

she provided a number of facts that she would be willing to say

6

in Mr. Woodard's defense; that Mr. Woodard stated that he would

7

be willing to testify.

8

And with regard to fading of memories, the officers'

9

memories, of course, have faded since that time, too, and they

10

have investigated, each of them, hundreds of cases since that

11

date.

12

faded.

I'm not saying that the defendant's memories haven't

13

But I also wanted to bring up that if Mr. Gillespie had

14

been alive to testify at this trial, his credibility would have

15

been undercut by the fact that his sister admits that he had

16

lied to her and that he had been a convicted felon which the

17

government would have elicited pursuant to Rule 609.

18

So the government is not saying that there's no

19

prejudice from a lengthy delay.

20

obviously there's some mitigation to that.

21

court has articulated, the standard is it must be purposeful,

22

designed to gain a tactical advantage.

23

THE COURT:

The government is saying

Thank you.

But also, as the

Thank you, Your Honor.

Those are good points.

24

However, it impressed the court, as Ms. Gillespie was

25

testifying, that had her brother been alive, a jury would be
Brian P. Neil, RMR-CRR
U.S. District Court - NDOK

Appendix B, page 10a

81

Case 4:18-cr-00086-GKF Document 131 Filed in USDC ND/OK on 04/01/19 Page 71 of 75
71

1

better able to assess his credibility.

2

credibility couldn't have been undermined by the government,

3

but it's more direct evidence for a jury to assess.

4

So it's all very interesting.

Not to say that his

But the fact of the

5

matter here is that the defendant doesn't satisfy the

6

requirement of the law in the Tenth Circuit as stated in the

7

Comosona case; the U.S. v. Batie case, 433 F.3d 1287, page 1293

8

(10th Cir. 2006); and I previously referenced the Crable case,

9

which is a district court case, and I cited that earlier today.

10

Simply put, the defendant has not demonstrated that the

11

delay here was intentional and purposeful; specifically, that

12

it was more than ordinary negligence.

13

continuing motion to dismiss will be denied with all due

14

respect.

15
16

Now, how do we intend to proceed from this point?
Counsel.

17
18

And with that, the

Mr. Kirkpatrick, maybe I should turn to you first.
MR. KIRKPATRICK:

Judge, I'm going to need about 30

seconds to talk to my client.

19

THE COURT:

20

Very well.

Very well.

We'll take five.

(Discussion held off the record)

21

THE COURT:

22

MR. KIRKPATRICK:

Mr. Kirkpatrick.
Your Honor, I've spoken to my

23

client and he tells me that he does desire to accept the

24

proffered pretrial agreement and we would like to go ahead with

25

that.
Brian P. Neil, RMR-CRR
U.S. District Court - NDOK

Appendix B, page 11a

82

